Office of
INSPECTOR GENERA.L

              ~            ~~ ~         ,~f,: ,~   ,....,..
                            Re~ort
 I   '   ..       "   ..          ,,;                         j   t"   ......" ..   .', '




: :AUdit




         Audit of the USjTC Finenciet Statements for
         Fiscal Years 1996 and 1995




         Report No. fG-O?-97




                                                                                            March 199 7
INSPECfOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                        WASHINGTON, D.C. 20436


 March 31,1997


 TO: THE COMMISSION

I hereby submit an Audit of the USITC Financial Statements for Fiscal
Years 1996 and 1995, Report No. IG-02-97. Agencies must establish
and maintain systems of accounting and reporting that provide for:
complete disclosure of the agency's financial results; adequate financial
information for agency management and for formulation and execution of
the budget; and effective control over revenue expenditure, funds,
property, and other assets.

In accordance with our plan to evaluate the agency's financial systems
on a cyclical basis, an audit of the USITC financial statements was
conducted. The objectives of this audit were to issue an opinion as to
the fairness of the USITC financial statements for the Fiscal Years (FYs)
ending September 30, 1996, and 1995, in presenting the financial
condition and results of operations; a statement on the adequacy of
internal controls; a statement on compliance.

 The audit was conducted by Brown & Company in accordance with the
 Government Auditing Standards issued by the Comptroller General of the
 United States. The auditors expressed the following opinions in the
 auditor's report:

              The statements of the financial position of the USITC as of
              September 30,1996, and 1995, present fairly, in all
              material respects, the financial position of the USITC as of
              September 30, 1996 and 1995, and the results of its
              operations and its cash flows for the years then ended in
              conformity with generally accepted accounting principles.

              Test results disclosed no instances of noncompliance with
              laws and regulations applicable to the Commission that
              would have a material effect on the financial statements.
              No matters involving the internal control structure and its
              operation were considered to be material weaknesses,
              although certain matters are reported in the management
              letter.

The auditors noted certain areas where improvement is warranted in
operating policies and procedures, which are set forth in the management
letter transmitted as part of this report. The auditors recommended that:

              The fixed asset items subject to deletion from the
              accounting records and property management system be
              correctly identified;

              The copiers recorded as additions to fixed assets in the
              general ledger and property records be reconciled;

              Two copiers be recorded in the general ledger equipment
              account;

              Information on all new additions to fixed assets be
              provided to the Property Management Official (PMO) and
              an updated fixed asset report be prepared;

               The PMO conduct a physical inventory as soon as
               possible;

               The operating procedures handbook be revised to state
               that invoices received at FY year end be reviewed for the
               date of receipt of goods or services to determine the
               appropriate fiscal year in which to charge the invoice; and

               Cost center managers be notified that only those invoices
               that have an accurate, signed receiving report or a
               certification that the goods or services were received and
               were satisfactory will be paid.

We are particularly concerned that the annual inventory of accountable
property, which is to be completed by February 15 according to
Commission policy, was not conducted in FY 1996, and the FY 1997
inventory has not been initiated. Further, the PMO identified this area as
a weakness in the FY 1996 internal control process. We identified
recurring problems with accountable property beginning in 1991. A
significant effort was made in FY 1995, that included reducing the
property inventory list and conducting quarterly inventories which were
monitored by our office, in order to ensure the property system was
operating on a sound basis. However, the system apparently did not


                                    2
continue to operate efficiently after our last inspection in August 1 995.
We will work with the Office of Administration to reexamine the
Commission policies and procedures on accountable property in order to
have a system that reflects the Commission's needs and priorities.

An exit conference was held with the Director of the Office of
Administration and staff from the Offices of Finance and Budget and
Management Services on January 30, 1997, to discuss the findings and
recommendations. The Director also submitted written comments on the
draft report.        He generally agreed with the findings and
recommendations; he proposed an alternative action to one
recommendation with which we agreed. His comments are presented
in their entirety as an appendix to this report.




                                   #!!:~
                                     Inspector General




                                    3
              UNITED STATES
    INTERNATIONAL TRADE COMMISSION

               Financial Statements

          September 30, 1996 and 1995

    (With Independent Auditor's Report Thereon)




•
                   UNITED STATES INTERNATIONAL TRADE COMMISSION

                                            Table of Contents




                                                                                             Page

Independent Auditor's Report                                                             .      1

Statements of Financial Position                                                         .      2

Statements of Operations and Cumulative Results of Operations .. "                       .      3

Statements of Cash Flows . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      4

Statements of Reconciliation to Budget                                                   .      5

Notes to Financial Statements                                              ','           .      6

Independent Auditor's Report on Compliance                                               .     14

Independent Auditor's Report on Internal Control                                         .     15
                                                             CERTIFIED PUBUC ACCOUNTANTS
                                                             AND MANAGEMENT CONSULTANTS


                           BROWN & COMPANY                                                   •


                                Independent Auditor's Report



  The Commissioners
  United States International Trade Commission

  We have audited the accompanying statements of financial position of the United States
  International Trade Commission as of September 3D, 1996 and 1995, and the related
  statements of operations and cumulative results of operations, cash flows, and reconciliation
  to budget for the years then ended. These financial statements are the responsibility of the
  Commission's management. Our responsibility is to express an opinion on these financial
  statements based on our audits.

  We conducted our audits in accordance with generally accepted auditing standards and
  Government Auditing Standards, issued by the Comptroller General of the United States.
  Those standards require that we plan and perform the audits to obtain reasonable assurance
  about whether the financial statements are free of material misstatement. An audit includes
  examining, on a test basis, evidence supporting the amounts and disclosures in the financial
  statements. An audit also includes assessing the accounting principles used and significant
  estimates made by management, as well as evaluating the overall financial statement
  presentation. We believe that our audits provide a reasonable basis for our opinion.

  In our opinion, the financial statements referred to above present fairly, in all material
  respects, the financial position of the United States International Trade Commission as of
  September 3D, 1996 and 1995, and the results of its operations and its cash flows for the
  years then ended in conformity with generally accepted accounting principles.

  In accordance with Government Auditing Standards, we have also issued a report dated
  January 3, 1997, on our consideration of the United States International Trade Commission's
  internal control structure and a report dated January 3, 1997, on its compliance with laws and
  requlations.




  Arlington, Virginia
  January 3, 1997




2300 CLARENDON BLVD • SUITE 1100 • ARLINGTON. VA 22201 • (703) 522-0800 • FAX: (703) 522-0806
                     UNITED STATES INTERNATIONAL TRADE COMMISSION
                               Statements of Financial Position
                                September 30, 1996 and 1995

Assets                                                          1996               1995

Current assets:
      Funds with the U.S. Treasury (Note 2)               $ 7,907,954        $   8,733,548
      Receivables (Note 2)                                          0               11,774
      Advance and prepayments (Note 2)                          9,747               11 .976

      Total current assets                                     7,917,701         8,757,298

Furniture, Equipment and Leasehold Improvements:
       Furniture and equipment                                 5,679,089         4,893,135
       Equipment under capital lease                             275,945           275,945
       Leasehold improvements                                  2,440,674         2,440,674

      Total furniture, equipment and
      leasehold improvements (Notes 2 and 3)                   8,395,708         7,609,754

      Total Assets                                        !   16,313,409     $ 16.367.052

Liabilities and Net Position

Current Liabilities:
      Accounts payable                                    $ 1, 054,467       $     365,278
      Accrued payroll and benefits                             1,321',542        1,202,000
      Accrued unfunded annual leave (Notes 2 and 7)            2,074,059         2,305,742
      Funds held in escrow (Notes 2 and 4)                        82,101            82,101
      Deposits payable (Note 2)                                    1,871            10,648
      Obligations under capital lease (Note 6)                    59,385            54,833

      Total current liabilities                               4,593A25           4,020,602
Long-term liabilities:
      Obligations under capital lease (Note 6)                    64.323           123,716

            Total Liabilities                                  4,657,748         4,144,318

Net Position: (Note 5)
      Unexpended appropriations                                5,447,973         7,073,521
      Invested capital                                         6,197,941         5,125,463
      Cumulative results of operations                             9,747            23,750

            Total Net Position                                11,655,661         12,222,734

            Total Liabilities and Net Position           $ 16,313,409        $ 16,367,052

            The accompanying notes are an integral part of these financial statements.


                                                 2
                   UNITED STATES INTERNATIONAL TRADE COMMISSION
               Statements of Operations and Cumulative Results of Operations
                     For the Years Ended September 30, 1996 and 1995


                                                                1996              1995

Appropriations expensed                                     $ 39,095,979    $ 43,020,225

Expenses
     Salaries                                                 23,528,427        25,678,485
     Personnel benefits                                        5,093,487         4,789,004
     Travel expenses                                             276,735           395,467
     Rental and communications services                        7,288,592         8,683,806
     Printing and reproductions                                   89,389           112,592
     Supplies and materials                                      617,215           681,360
     Equipment                                                   372,865           246,878
     Other services                                            1,843,272.        2,417,603

             Total expenses                                   39,109,982        43,005,195

Excess (deficiency) of appropriations expensed over
expenses                                                         (14,003)           15,030

Cumulative results of operations,
beginning of year                                                 23,750             8,720

Cumulative results of operations,
end of year                                             $          9,747    $       23,750




            The accompanying notes are an integral part of these financial statements.




                                                3
                    UNITED STATES INTERNATIONAL TRADE COMMISSION
                                   Statements of Cash Flows
                       For the Years ended September 30, 1996 and 1995
                                                                      1996                1995
Cash flows from operating activities:

      Appropriations received (Note 2)                    $       39,954,000     $ 42,375,000
      Appropriations used                                         38,177,859         42,937,816
      Appropriations returned to Treasury                          1,317,152            590,377

         Net cash provided (used) by operating
         activities                                                  458.989         (1,153.193)

Cash flows from investing activities:
 Purchases of furniture and equipment                             (1,229,750)           (77,129)

        Net cash used by investing activities                     (1,229,750)           (77,129)

Cash flows from financing activities:

 Amortization of lease principal                                     (54,833)           (50,638)

       Net cash used for financing activities                        (54,833)           (50.638)

Net decrease in funds with U.S. Treasury                           (825,594)         (1,280,960)
Fund balances with U.S. Treasury, beginning of year               8,733,548          10,014,508

Fund balances with U.S. Treasury, end of year                 $   7,907,954      $    8,733,548

Reconciliation of excess (deficiency) of appropriations
expensed over expenses.

Excess (deficiency) of appropriations expensed                $      (14,003)    $       15,030
over expenses

Adjustments:
      Unexpended appropriations                                   (1,625,548)        (1,278,837)
      Net appropriations used in investing activities              1,229,750             77,129
      Changes in:
       Receivables                                                   11,774             (11,774)
       Advances and prepayments                                       2,229              (3,256)
       Accounts payable                                             689,189             (29,653)
       Accrued payroll and benefits                                 119,542             (61,547)
       Funds held in escrow                                                  0           80,734
       Deposits                                                      (8,777)              8,343
       Obligations under capital lease                               54,833              50,638

         Net cash provided (used) by operating
         activities                                       $         458,989      §   (1.153,193)

            The accompanying notes are an integral part of these financial statements,


                                                  4
                    UNITED STATES INTERNATIONAL TRADE COMMISSION
                            Statements of Reconciliation to Budget
                      For the Years Ended September 30, 1996 and 1995


                                                                1996             1995

Relation of expenses to outlays

      Expenses                                           $ 39,109,982       $ 43,005,195
      Adjustments to expenses
       Capital expenditures                                  1,229,750              77,129
       Transactions excluded from budget reports              (118,138)            (86,063)
      Changes in:
       Receivables                                             (11,774)            11,774
       Advances and prepayments                                 (2,229)             3,256
       Accounts payable                                       (689,189)            29,653
       Accrued payroll and benefits                           (119,542)            61,547
       Obligations under capital lease                          54.833             50.638

      Net outlays, per budget report                     $ 39,453.693       i   43,153.129

Relation of obligations to outlays

      Obligations incurred                               $ 38,648,459       $ 41,904,844
      Fund balances with U.S. Treasury,
       beginning of year                                     8,728,048          10,014,508
      Fund balances with U.S. Treasury,
       end of year                                          ( 7,902,454)        (8,728,048)
      Adjustments to expired accounts                           (20,360)           (38.175)

      Net outlays, per budget report                    $   39.453.693       $ 43.153.129




            The accompanying notes are an integral part of these financial statements.




                                                5
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                            Notes to Financial Statements
                            September 30J 1996 and 1995

NOTE 1. Organization

        Background and mission - The United States International Trade Commission (USITC) is an
        independent agency of the U.S. Government created by an act of Congress. USITC is
        headed by six commissioners, appointed by the President and confirmed by the U.S. Senate
        for nine-year terms. The President designates the chairman and vice chairman, each of
        whom serve two-year terms.

        USITC conducts investigations and reports findings relating to imports and the effect of
        imports on industry, unfair import practices, and the effect of agricultural imports on
        programs of the U.S. Department of Agriculture. USITC advises the President on the
        probable economic effect of proposed trade agreements with foreign countries. USITC also
        conducts analytical studies and provides reports on issues relating to international trade and
        economic policy matters on behalf of both the Congress and President.

        Financing sources - USITC receives no-year funding for operations from appropriations.
        Appropriations are recognized as revenue and "expensed" when related operating expenses
        are incurred. Differences between appropriations received and expensed are included in
        unexpended appropriations.


NOTE 2. Summary of Significant Accounting Policies

        The following is a summary of significant accounting policies:

        Basis of accounting - USITC's financial statements are presented on the accrual basis of
        accounting and in accordance with Title 2, GAO Policy and Procedures Manual for Guidance
        of Federal Agencies, which is SUbstantially equivalent to generally accepted accounting
        principles. USITC's fiscal year is October 1, to September 30.

        Appropriations - Congress appropriated to USITC $40,000,000 less a $46,000 rescission
        in fiscal year 1996 and $42,500,000, less a $125,000 rescission in fiscal year 1995, for
        general operations. Congress has appropriated $40,850,00 to USITC for fiscal year 1997.


        Fund balances with the U.S. Treasury - Fund balances with the U.S. Treasury represent
        appropriated funds in the custody of the U.S. Treasury and are available for payment of
        USITC obligations. USITC's obligated and unobligated fund balances are carried forward
        until goods or services are received and payment is made, or until such time as funds are
        deobligated.

        Advances and prepayments - Advances and prepayments consist of employee travel
        advances and certain miscellaneous prepayments.




                                                6
                  UNITED STATES INTERNATIONAL TRADE COMMISSION
                            Notes to Financial Statements
                             September 30, 1996 and 1995



NOTE 2. Summary of Significant Accounting Policies (continued)

         Furniture, equipment and leasehold improvements - As more fully disclosed under Note 3,
         furniture and equipment additions are recorded at cost with a corresponding entry to invested
         capital. Furniture and equipment which have been transferred to USITC from other Federal
         agencies are recorded at original cost. The costs of leasehold improvements performed by
         the General Services Administration (GSA), but financed by USITC, are capitalized. Assets
         are carried at original cost until USITC disposes of them. It is the policy of USITC not to
         depreciate assets because they are construed to be non-revenue producing in nature.

         Leases - As more fully disclosed in Note 6, USITC leases its office and storage facilities
         under agreements with the GSA.

         Accrued unfunded annual leave - Annual leave is accrued as it is earned , although it is not
         funded until it is utilized by employees. Sick, compensatory and certain other types of leave
         are not accrued and are expensed when utilized by the employee.

         Funds held in escrow - As more fUlly disclosed under Note 4, funds held in escrow consist
         of bonds held in escrow as the result of an investigation.

         Deposits - Deposits consist of miscellaneous receipts held in trust for the U.S. Treasury or
         respondents.

         Invested capital - Invested capital represents U.S. Govemment appropriations invested in
         furniture , equipment, and leasehold improvements, net of the accrued unfunded annual leave
         and obligations under capital lease.

         Intergovernmental activities - USITC records and reports only those Government-wide
         financial matters for which it is responsible and identifies only those financial matters with
         the department or agency that USITC has been granted budget authority and resources to
         manage.




                                                 7
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                            Notes to Financial Statements
                            September 30, 1996 and 1995


NOTE 3.Furniture, Equipment and Leasehold Improvements

        Furniture, equipment and leasehold improvements are recorded at cost and consist of the
        following:
                                                          September 30


        Furniture and equipment                    $ 5,679,089          $ 4,893,135
        Equipment under capital lease                   275,945             275,945
        Leasehold improvements                        2,440,674           2,440.674

                                                   $ 8,395.708          § 7,609.754


NOTE 4. Funds Held in Escrow

        Funds held in escrow consist of bonds posted by respondents to USITC actions as a result
        of investigations on unfair importing practices into the United States. The bonds are being
        held in escrow pending the outcome of legal proceedings. No bonds were refunded to
        Treasury or respondents during fiscal years 1996 and 1995.


NOTE 5. Net Position

        Unexpended appropriations include approximately $1,106,031 and $3,591,030 of unobligated
        balances as of September 30, 1996 and 1995, respectively. The amount returned to the
        U.S. Treasury in fiscal year 1996 was $1,317,152 representing unexpended funds from
        1990. In fiscal year 1995, unexpended 1989 funds of $ 590,377 were returned to the U.S.
        Treasury.




                                               8
                              UNITED STATES INTERNATIONAL TRADE COMMISSION
                                         Notes to Financial Statements
                                         September 30, 1996 and 1995

NOTE 5.     Net Position (continued)

            The activity in the net position accounts for the fiscal years ended September 30, 1996 and 1995 was as
            follows:


                                                                            Cumulative
                             Unexpended                Invested             Results of
                            Appropriations              CaPital             Operations             Total

October 1, 1994             $ 8,352,358            $ 5,206,006               $ 8,720            $ 13,567,084
Appropriations
 received                     42,375,000                                                         42,375,000
Appropriations used
 to fund purchase of
 furniture and
 equipment                       (77,129)               77,129
Appropriations used
 to fund operating
 expenses                    (43,020,225)                                  43,020,225
Appropriations
 expensed                         84,532                                  (43,005,195)           (42,920,663)
Increase in unfunded
 leave and benefits                                   (120,584)                                     (120,584)
Amortization of lease
principal                       (50,638)                50,638
FY 1989 unobligated                                                                                 (590,377)
balance withdrawn              (590,377)
Deletions of fixed
 assets                                                (87,726)                                      (87,726)

September 30,1995              7,073,521             5,125,463                 23,750             12,222,734

Appropriations
 received                     39,954,000                                                          39,954,000
Appropriations used
 to fund purchase of
 furniture and
 equipment                    (1 ,229,750)          (1,229,750)
Appropriations used
 to fund operating
 expenses                    (39,095,979)                                 (39,095,979)
Appropriations
 expensed                        118,175                                  (39,109,982)           (38,991,807)
Decrease in unfunded
 leave and benefits                                   231,683                                        231,683
Amortization of lease
 principal                       (54,833)               54,833
FY 1990 unobligated
balance withdrawn             (1,317,152)                                                         (1,317,152)
FY 1995 adjustment
to cumulative results
of operation                           (9)                   9
Deletions of fixed
 assets                                               (443,797)                                      (443,797)
September 30, 1996
                        $      5,447.973      $      6,197,941      s           9747        $      11,655,661




                                                        9
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                            Notes to Financial Statements
                            September 30, 1996 and 1995



NOTE 6. Leasing Arrangements

        Operating Lease

        All USITC Office space is leased through GSA under a cancelable ten-year operating lease
        agreement. The lease provides for amended base annual rental payments which are
        increased annually in accordance with operating cost and real estate tax escalation clauses.
        In addition, annual agreements are negotiated for other occupancy costs and services. GSA
        charges USITC for a standard lease users charge. Lease expenses for office space during
        fiscal years 1996 and 1995 were approximately $6,702,228 and $7,491,024, respectively.

        The estimated future rental payments, exclusive of escalation and other occupancy costs,
        as of September 30, 1996, are as follows:


                 September 30                  Amount

                   1997                      $ 6.486.520


                                             $ 6.486,520


        The GSA lease expires in August 1997.       USITC also has various other annual and month-
        to-month leases for certain equipment.

        Capital Lease

        USITC has entered into a lease agreement with the Xerox Corporation for docutech network
        publisher and accessories for the Publishing Division. The agreement is a lease to
        ownership plan (LTOP) and provides for transfer of equipment title and ownership to USITC
        at the end of the aD-month lease period without any additional payment.




                                               10
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                            Notes to Financial Statements
                            September 30, 1996 and 1995


NOTE 6. Leasing Arrangements (continued)

        Capital Lease Obligation - Future payments due are as follows:



          Fiscal year 1996                           $          o        $     67,144
          Fiscal year 1997                                67,144               67,144
          Fiscal year 1998                                67,136               67,135
        Total future lease payments                      134,280              201,423

          Less: imputed interest                          10.572               22,874
        Total obligations under capital lease            123,708              178,549

           Less: current obligations                      59,385               54,833

        Long-term obligations                             64,323         $    123 716


NOTE 7. Employee Benefit Programs

        Retirement - Substantially all of USITC's employees are covered under either the Civil
        Service Retirement System (CSRS) or the Federal Employees Retirement System (FERS),
        For employees covered under CSRS (those employees hired prior to January 1, 1984),
        USITC withholds approximately 7 percent of each employee's salary and contributes a
        matching amount to the fund, CSRS covered employees do not have FICA withholdings
        and, thus, are not fUlly eligible to receive Social Security benefits, For employees covered
        under FERS (generally those employees hired on or after January 1, 1984), USITC
        withholds, in addition to FICA withholdings, approximately 0,8 percent of employee gross
        earnings and matches such withholdings with a 7 percent contribution.

        Under FERS, employees also receive retirement benefits from Social Security and, if
        applicable, benefits from a defined contribution plan (thrift), Under the thrift plan, an
        employee may contribute (tax deferred) up to 10 percent of salary to an investment fund.
        USITC then matches this amount up to 5 percent Those employees which elected to
        remain under CSRS after January 1, 1984, continue to receive benefits in place and may
        also contribute (tax deferred) up t05 percent of their salary to the thrift plan, but with no
        matching amount contributed by USITC,

        CSRS and FERS are multi-employer plans, Although USITC funds a portion of pension
        benefits relating to its employees, and provides for the necessary payroll withholdings, it
        does not maintain or report information with respect to the assets of the plans, nor does it
        report actuarial data with respect to accumulated plan benefits or the unfunded




                                                11
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                           Notes to Financial Statements
                            September 30, 1996 and 1995



NOTE 7. Employee Benefit Programs (continued)

        pension liability relative to its employees. The reporting of such amounts is the responsibility
        of the U.S. Office of Personnel Management.

        USITC's contribution to both plans was approximately $2,304,807 and $2,177,881 for the
        years ended September 30, 1996 and 1995, respectively.

        Accrued leave - USITC's employees are entitled to accrue annual leave and accumulate
        sick time based on their years of service. Annual leave may be accrued up to 240 hours
        per employee, for substanfially all employees, and is payable based on the employee's
        annual salary upon separation. Under certain circumstances, Senior Executive Service
        personnel and employees affected by exigencies of the public business may accrue more
        than 240 hours of annual leave. There is no maximum limit on sick time which may be
        accumulated; however, any unused sick time is not paid to employees upon separation.

        Health benefits and life insurance - USITC, through the federal government, offers health
        and life insurance plans, under which premium costs for health care are shared between
        USITC and the employees. The substantial portion of life insurance premiums are paid by
        employees. Amounts paid by USITC for health care were approximately $ 835,178 and $
        987,332 for the years ended September 3D, 1996 and 1995, respectively.


NOTE B. Commitments and Contingencies

        Committed obligations - USITC is committed under certain obligations incurred for goods or
        services ordered but not yet received. Aggregate orders not received at September 3D,
        1996 and 1995 reflected as part of unexpended appropriations in the accompanying financial
        statements, amounted .to approximately $2,036,374 and $2,183,589, respectively.

        Unpaid compensatory time - Government-wide requlatlons, labor law, and USITC policy
        provides for the accumulation of compensatory time for employees for overtime hours
        worked. USITC Directive No. 4304.2, dated March 25, 1994, prescribes the use of
        compensatory time, and the policy that employees who are voluntarily separated from
        service must take earned compensatory time prior to separation or lose any unused
        compensatory time. The liability relating to unpaid compensatory time is not considered by
        management to be material and has not been reported in the financial statements.




                                                 12
                 UNITED STATES INTERNATIONAL TRADE COMMISSION
                            Notes to Financial Statements
                            September 30, 1996 and 1995


NOTE 8. Commitments and Contingencies (continued)

        Legal- USITC is a party in various pending or threatened litigation, claims and assessments
        that each individually represent a potential loss exposure in excess of $25 tOOO. The
        Commission is contesting all of the claims, which primarily involve former employee
        discrimination complaints relative to the January 1996 reduction-in-force. While the ultimate
        result of these legal proceedings cannot be predicted, management identified no material
        liabilities or gain or loss contingencies that are required to be accrued or disclosed.




                                               13
                                                                  CERTIFIED PUBLIC ACCOUNTANTS



  IlD                          BROWN & COMPANY
                                                                  AND MANAGEMENT CONSULTANTS


                                                                                                  •

                           Independent Auditor's Report On Compliance




The Commissioners
United States International Trade Commission

We have audited the financial statements of the United States International Trade Commission as of
and for the years ended September 3D, 1996 and 1995, and have issued our report thereon dated
January 3, 1997.

We conducted our audits in accordance with generally accepted auditing standards and Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards require
that we plan and perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatement.

Compliance with laws and regulations applicable to the United States International Trade Commission
is the responsibility of the Commission's management. As part of obtaining reasonable assurance
about whether the financial statements are free of material misstatement, we performed tests of the
Commission's compliance with certain provisions of applicable laws and regulations. However, our
objective was not to provide an opinion on overall compliance with such provisions. Accordingly, we
do not express such an opinion.

The results of our tests disclosed no instances of noncompliance that are required to be reported herein
under Government Auditing Standards.

This report is intended for the information of the Commissioners and management of the United States
International Trade Commission. This restriction is not intended to limit the distribution of this report,
which is a matter of public record.


Arlington, Virginia
January 3, 1997




                                                   14
   2300 CLARENDON BLVD • SUITE 1100 • ARLINGTON, VA 22201 • (703) 522-0800 • FAX: (703) 522-0806
 IlD
                                                                  CERTIFIED PUBUC ACCOUNTANTS
                                                                  AND MANAGEMENT CONSULTANTS


                               BROWN & COMPANY                                                    ..
                        Independent Auditor's Report on Internal Control



The Commissioners
United States International Trade Commission


We have audited the financial statements of the United States International trade Commission as of
and for the years ended September 30, 1996 and 1995, and have issued our report thereon dated
January 3, 1997.

We conducted our audits in accordance with generally accepted aUditing standards and Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards require
that we plan and perform the audits to obtain reasonable assurance about whether the financial
statements are free of material misstatement.

The management of the United States International Trade Commission is responsible for establishing
and maintaining an internal control structure. In fulfilling this responsibility, estimates and judgments
by management are required to assess the expected benefits and related costs of internal control
structure policies and procedures. The objectives of an internal control structure are to provide
management with reasonable, but not absolute, assurance that assets are safeguarded against loss
from unauthorized use or disposition, and that transactions are executed in accordance with
management's authorization and recorded properly to permit the preparation of financial statements in
accordance with generally accepted accounting principles. Because of inherent limitations in any
internal control structure, errors or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the structure to future periods is subject to the risk that procedures may
become inadequate because of changes in conditions or that the effectiveness of the design and
operation of policies and procedures may deteriorate.

In planning and performing our audits of the financial statements of the United States International
Trade Commission for the years ended September 3D, 1996 and 1995, we obtained an understanding _
of the internal control structure. With respect to the internal control structure, we obtained an
understanding of the design of relevant policies and procedures and whether they have been placed
in operation, and we assessed control risk in order to determine our auditing procedures for the
purpose of expressing our opinion on the financial statements and not to provide an opinion on the
internal control structure. Accordingly, we do not express such an opinion.




                                                   15
  2300 CLARENDON BLVD • SUITE 1100 • ARLINGTON, VA 22201 • (703) 522-0800 • FAX: (703) 522-0806
OUf consideration of the internal control structure would not necessarily disclose all matters in the
internal control structure that might be material weaknesses under standards established by the
American Institute of Certified Public Accountants. A material weakness is a condition in which the
design or operation of one or more of the internal control structure elements does not reduce to a
relatively low level the risk that errors or irregularities in amounts that would be material in relation to
the financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. We noted no matters involving
the internal control structure and its operations that we consider to be material weaknesses as defined
above.

However, we noted certain matters involving the internal control structure and its operation that we have
communicated to the management of the United States International Trade Commission in a letter
dated January 3, 1997.

This report is intended for the information and use of the Commissioners and the management of the
United States International Trade Commission. This restriction is not intended to limit the distribution
of this report, which is a matter of public record.




Arlington, Virginia
January 3, 1997




  •IE::===::===::===::===::= BROWN & COMPANY==================~
                                      16
        UNITED STATES
INTERNATIONAL TRADE COMMISSION
       MANAGEMENT LEITER

         September 30, 1996
                                                                  CERTIFIED PUBUC ACCOUNTANTS
                                                                  AND MANAGEMENI' CONSULTANTS


                             BROWN & COMPANY                                                        •


    The Commissioners
    United States International Trade Commission
    Washington, D.C.

    We have audited the financial statements of the United States International Trade Commission
    (USITC) for the years ended September 30, 1996 and 1995, and have issued our report thereon
    dated January 3, 1997.

    We conducted our audits in accordance with generally accepted auditing standards and
    Government Auditing Standards, issued by the Comptroller General of the United States. Those
    standards require that we plan and perform the audits to obtain reasonable assurance about
    whether the financial statements are free of material misstatement.

    In planning and performing our audits of the financial statements of the USITC for the years
    ended September 30, 1996 and 1995, we noted certain areas where we believe improvement is
    warranted in operating policies and procedures. The noted conditions are summarized as follows:


    A.     FIXED ASSETS

    Deletions to Fixed Assets

    The Office of Finance and Budget (OFB) prepares a schedule of deletions to fixed assets that
    shows information relating to acquisition cost of items, sales credits and discounts, and amounts
    of trade-ins. The information on this schedule is supported by copies of purchase orders,
    vendors invoices and detailed fixed asset listings from the Office of Management Services
            I


    (OMS) showing and identifying items traded-in for new purchases. Our examination of
    documents supporting the deletions as recorded in the Equipment account for fiscal year 1996,
    disclosed the following exceptions:

    1.     The accounting records showed 7 Xerox copiers, model no. 5028, as traded in for new
           purchases. However, our review disclosed that only 5 items were traded in as of
           September 30, 1996. Consequently, the fixed asset account was understated by $10,880.

    2.     The accounting records showed 6 Canon copiers, model no. 4050, as traded in for new
           purchases. However, our review of documents supporting the deletions revealed that
           actually 7 copiers were traded in as of September 30, 1996. Consequently, the
           Equipment account in the general ledger was overstated by $7,527.

    3.     The accounting records showed 2 Canon copiers, model no. 6650, as traded in for new
           purchases. Our review of documents supporting deletions recorded in the fixed asset




2300 CLARENDON BLVD • SUITE 1100 • ARLINGTON, VA 22201 • (703) 522-0800 • FAX: (703) 522-0806
       accounts disclosed that only 1 copier was traded in as of September 30, 1996, resulting
       in the understatement of the Equipment account by $11,844.

The differences noted above were adjusted in the financial statements       for the year ended
September 30, 1996. USITC Directive No. 3550.2, dated May 3,                1995, on property
management, states that the USITC is to establish and maintain a property   management system
of accounting and reporting that provides for the effective control of      Government-owned
accountable property.

We recommend that the Directors of the OFB and the OMS properly identify those fixed asset
items which should be deleted from the accounting records and the property management system.

Additions to Fixed Assets

The OFB prepares a schedule of additions to fixed assets which provides documentary and
financial information to support the journal entries in the Federal Financial System (FFS) fixed
asset accounts for new purchases. We performed tests of the additions through examination of
supporting documentation, review of appropriate entries in the detailed records, and physical
inspection of selected major items. The results of our tests disclosed the following conditions:

1.     The accounting records showed that 8 Xerox copiers, model no. 5034, were purchased
       and the total cost added to the Equipment account. However, we counted 10 new Xerox
       copiers of the same model during our physical inspection. The difference reflects an
       understatement of fixed assets by $15,510 as of September 30, 1996.

2.     The Equipment account in the FFS general ledger was not adjusted for the difference
       noted above because the 2 Xerox copiers that make up the difference are not readily
       identifiable as to their serial numbers. Out of the 10 Xerox copiers actually inspected and
       verified against the OMS' Copier Volume & Cost Record, OPS Form 128, only 3 items
       have serial numbers that agree with the information on the supporting documents used by
       OFB to support its journal entries for additions to fixed assets.

Again, we reiterate the USITC policy on property management as stated in Directive No. 3550.2
dated May 3, 1995, "It is the policy of the USITC to establish and maintain a property
management system of accounting and reporting that provides for the effective control of
Government-owned accountable property."

We recommend that the Director of Administration direct the OFB and OMS to reconcile the
serial numbers on Xerox copiers that were recorded as additions to fixed assets in the FFS
general ledger and those recorded in the OMS Copier Volume & Cost Record, OPS Form 128.

In addition, we recommend that the Chief of the Finance Division record in the FFS Equipment
account the cost of the 2 copiers noted during our physical inspection after the related serial
numbers have been determined.

                                                2
Response:     Agree

The Directors of OFB and OMS will have their staffs reconcile the property management records
with the accounting records to ensure that the end of year records are accurate. To minimize
the potential for future problems, the Director of Administration will direct OMS and OFB to
reconcile their records annually by July 31. This will move most of the reconciliation process
outside the end of fiscal year processing period when other priorities often arise and the large
volume of work contributes to the potential for delay or mistake in the record-keeping process.
The Director of Administration will also direct OFB and OMS to reconcile serial numbers on
copiers that are added to the fixed asset list in their respective records.

       Target Completion Date:       April 15, 1997

Other Conditions Noted During the Fixed Assets Review

1.     For FY 1996, we noted that the OMS has not prepared an updated annual Fixed Asset
       Report (FAR) that is maintained for financial accounting purposes and annually reconciled
       to the OFB's accounting records. We were informed by OMS that the FAR was not
       produced because the information on the new additions to fixed assets acquired during FY
       1996 to be provided by OFB was not available for posting in the Property Management
       System (PMS).

2.     Based on our inquiries and review of fixed asset accounts, we determined that the annual
       inventory of accountable property for FY 1996 that should have been performed after the
       first quarter of FY 1996 was not done. OMS personnel explained that system problems
       with the PMS prevented generation of updated listings of accountable property for use by
       Accountable Officers (AD) in taking the inventory. We also noted that there was no
       physical count of fixed assets made during first the quarter of FY 1997.

       However, based on our review of the USITC's Office of Inspector General's proposed
       Inspection Report No. 2-96, we noted that a physical inventory of USITC accountable
       property was conducted in August 1995.

The USITC Directive No. 3550.2 dated May 3, 1995, provides for the maintenance of the Fixed
Asset Report (FAR) for financial accounting purposes and annual reconciliations with OFB IS
accounting records. The Directive also provides for the physical count of accountable property
that is actually on hand and comparison of the counts with the FAR and other applicable property
records. The physical inventory of accountable property is to be conducted at least once annually
during the first quarter of the fiscal year.

We recommend that the Chief of the Finance Division provide information on all new additions
to fixed assets to the OMS, and that the OMS prepare an updated FAR.

                                               3
We also recommend that the Director of the OMS conduct a physical inventory for FY 1997 as
soon as possible.

Response:      Agree

The Chief of the Finance Division will provide the necessary information by April 15, 1997.
The Director of OMS has prepared a revised Property Management Directive that will hopefully
ease the burden of property tracking without compromising the Commission s control over
                                                                                 I


property. The new directive must be reviewed within Administration, as well as by the General
Counsel and the Inspector General, before it is circulated to the Commission. We hope to have
it before the Commission by May 1, 1997. A physical inventory will be completed as soon as
possible, once the new directive is in place.

       Target Completion Date:       May 30, 1997


B.     MISSTATEMENT OF ACCOUNTS PAYABLE AT FISCAL YEAR END
       (Repeat Condition)

The Finance Division expenses all invoices received prior to closing the general ledger for the
fiscal year and recognizes the invoiced amounts as accounts payable. However, our review of
35 invoices and the related receiving reports and shipping dates for fiscal years 1996 and 1995
disclosed that the goods and services for 4 invoices were received after the fiscal year end and,
therefore, should not have been expensed or recognized as liabilities. This practice resulted in
an overstatement of accounts payable in the amount of $30,714 for fiscal year 1996 and none
for fiscal year 1995.

We reviewed 18 invoices and the related receiving reports and shipping dates for transactions
recorded during the two (2) months after September 30, 1996 and 1995. Our review disclosed
that the goods or services for 4 invoices were received before the end of the fiscal years, and
consequently, should have been expensed and recognized as liabilities. Failure to record these
transactions resulted in the understatement of accounts payable in the amount of $28,442 and
$19,341 for fiscal years 1996 and 1995, respectively.

The Revised Standard Operating Procedures, Section VIII-I, states that "all unpaid invoices
received prior to fiscal year end or invoices received subsequent to the fiscal year end until the
day the accounting records are closed, which relate to services rendered or goods received
prior to the fiscal year end, are recorded as accounts payable.   II




We recommend that the Director of the OFB amend Section VIII-I, C, of the Revised Standard
Operating Procedures handbook to require that the Chief of Finance examine invoices received
subsequent to the fiscal year end for the date of receipt of goods or services to determine the
appropriate fiscal year in which to charge the expense.



                                                4
Response:      Agree in PartlDisagree in Part

While any inaccuracies in end of fiscal year processing are regrettable and should be minimized,
especially when repeated, we note that a large volume of invoices are typically processed in the
end of fiscal year rush and human error is inevitable. In the past, we attempted to eliminate this
error by instructing the accounting technicians to verify the date of receipt for all invoices
received at fiscal year end. We believe that verifications of the date of receipt is a duty and
responsibility of the accounting technicians and should not become part of the Finance Division
Chief's duties and responsibilities.

Requiring the Finance Division Chief to examine any invoices received after the end of the fiscal
year but before the accounting records are closed, places an extra burden on the Finance Chief
during a very busy close-out period. While we understand the concern of the auditor's that this
kind of human error continues to occur, we note that eliminating human error entirely may not
be possible. Rather than having the Chief of the Finance Division perform additional clerical
duties, we suggest issuing instructions to the accounting technicians that would require them to
circle the date of receipt on all invoices processed after the end of the fiscal year. This would
ensure that they actually viewed the date of receipt and would make them accountable for
something within their area of responsibility, rather than delegating it back up the chain of
command. If this fails to minimize errors, then it may be appropriate to have the Division Chief
recheck all their end-of-year work.

       Target Completion Date:       April 15, 1997


C.     UNDOCUMENTED RECEIPT OF GOODS ANDSERVICES AND/ORPAYMENTS
       OF INVOICES PRIOR TO RECEIPTS OF GOODS OR SERVICES
       (Repeat Condition)

During our tests of disbursements, we noted that out of 78 selected invoices reviewed, 2 invoices
did not have the information as to when the goods or services were actually received or rendered,
and 2 invoices showed dates of receipt that had occurred subsequent to the dates when the
invoices were noted as paid. The Finance Division relies on Cost Center Managers or their
designees to provide information relative to if and when the goods or services were received.
The date of receipt is necessary for Finance to make an accurate determination as to the proper
fiscal year in which to record the transactions. Certification provides assurance that goods and
services were provided in accordance with purchase orders, contracts, or other executed
agreements.

Section 1II-4 of the Revised Standard Operating Procedures, requires that the Finance Division
receive either a certification by an authorized USITC representative indicating when the goods
and services were received or an actual receiving report which is signed by an authorized USITC
representative before processing an invoice for payment.



                                                5
We recommend that the Director of the OFB notify all Cost Center Managers that the Finance
Division will pay only those invoices for which they have an accurate, signed receiving report
or a certification that the goods or services were received and were satisfactory.

Response:     Agree

The Director of OFB will send out the suggested notice.

       Target Completion Date:      April 15, 1997


D.     IMPROPER MINIMUM ANNUAL LEAVE CHARGE

During our tests of payroll and personnel benefits for a sample of 50 USITC employees for-fiscal
years 1996 and 1995, we noted one instance where an employee's used year-to-date annual leave
hours had an increment of a fraction of an hour. This condition was made possible because
USITC's time and attendance system accepts annual leave usage for less than one hour
increments.

Subsequent to the exit conference, the Chief of the Finance Division sent an electronic mail
memorandum to all timekeepers as a reminder to USITC Directive No. 2201.1, dated September
18, 1992, Chapter VI, Recording of Leave and Absences, that states: "Only whole hour
increments of annual leave are to be recorded on the T&A record.   II




Response:     Agree

The Chief of the Finance Division sent an electronic memorandum to all agency timekeepers
reminding them of the Commission policy.

       Target Completion Date:      Done

We appreciate the cooperation and courtesies extended to us by USITC personnel during our
audit, and we trust the comments and suggestions contained herein will be received in the spirit
with which they are offered. If we can be of assistance in implementing any of the
recommendations, please do not hesitate to contact us.

This report is intended for the information of the management of the United States International
Trade Commission and the Office of the Inspector General. This restriction is not intended to
limit the distribution of this report, which is a matter of public record.



Arlington, Virginia
January 3, 1997

                                               6
                                                                                Appendix

ADMINISTRATION'S RESPONSE TO THE DRAFT AUDIT REPORT OF THE USITC
       FINANCIAL STATEMENTS FOR FISCAL YEARS 1995 AND 1996

A.   FIXED ASSETS:

     1.     Deletions!Additions to Fixed Assets

            FINDING/SUGGESTION

     The Office of Finance & Budget (OFB) prepares a schedule of deletions to fixed
     assets that shows information relating to acquisition cost of items, sales credits and
     discounts, and amounts of trade-ins. The information on this schedule is supported
     by copies of purchase orders, vendors' invoices and detailed fixed asset listing from
     the Office of Management Services (OMS) showing and identifying items traded-in
     for new purchases. Similarly, OFB prepares a schedule of additions to fixed asset
     which provides documentary and financial information to support journal entries in
     the Federal Financial System fixed asset account for new purchases. The auditors
     examination of the records disclosed that the OFB accounting records needed to be
     reconciled with OMS' copier records.

     The auditors recommend that the Directors of OFB and OMS properly identify
     those fixed asset items which should be deleted from the accounting records and the
     property management system. They also recommend that the Director of
     Administration direct the OFB and OMS to reconcile the serial numbers on Xerox
     copiers that were recorded as additions to fixed assets in the FFS general ledger and
     those recorded in the OMS Copier Volume & Cost Record, OPS Form 128. In
     addition, they recommend that the Chief of the Finance Division record in the FFS
     Equipment account the cost of the 2 copiers noted during our physical inspection
     after the related serial numbers have been determined.

            RESPONSE: AGREE

     The Directors of OFB and OMS will have their staffs reconcile the property
     management records with the accounting records to ensure that the end of year
     records are accurate. To minimize the potential for future problems, the Director of
     Administration will direct OMS and OFB to reconcile their records annually by July
     31. This will move most of the reconciliation process outside the end of fiscal year
     processing period when other priorities often arise and the large volume of work
     contributes to the potential for delay or mistake in the record-keeping process. The
     Director of Administration will also direct OFB and OMS to reconcile serial
     numbers on copiers that are added to the fixed asset list in their respective records.

            TARGET COMPLETION DATE: April 15, 1997
                                           2


     2.    Other Conditions

           FINDING/SUGGESTION

     The auditors found that OMS has not prepared an updated FY 1996 annual Fixed
     Asset Report (FAR) that is maintained for financial accounting purposes and
     annually reconciled to OFB's accounting records because the information on
     additions to fixed assets was not yet available to OMS. The auditors also determined
     that the annual inventory of accountable property for FY 1996 was not done because
     of system problems that prevented a generation of updated listings of accountable
     property for use in taking inventory.

     The auditors recommend that the Chief of the Finance Division provide the
     information on all new addition to fixed assets to the OMS, and that OMS prepare
     and updated FAR. They also recommend that the Director of OMS conduct a
     physical inventory for FY 1997 as soon as possible.

           RESPONSE: AGREE

     The Chief of the Finance Division will provide the necessary information by April
     15, 1997. The Director of OMS has prepared a revised Property Management
     Directive that will hopefully ease the burden of property tracking without
     compromising the Commission's control over property. The new directive must be
     reviewed within Administration, as well as by the General Counsel and the Inspector
     General, before it is circulated to the Commission. We hope to have it before the
     Commission by May 1, 1997. A physical inventory will be completed as soon as
     possible, once the new directive is in place

            TARGET COMPLETION DATE: May 30, 1997


B.   MISSTATEMENT OF ACCOUNTS PAYABLE AT FISCAL YEAR END

            FINDING/SUGGESTION

     The Finance Division expenses all invoices received prior to closing the general
     ledger for the fiscal year and recognizes the invoices amounts as accounts payable.
     The auditors' review of 35 FY 1995 and 18 FY 1996 invoices and related receiving
     and shipping reports disclosed that 4 invoices were received after the fiscal year end,
     but were charged to the prior year, while 4 invoices were received before the fiscal
     year end, but were charged to the subsequent year. As a result, the accounts
     payable for FY 1995 and FY 1996 had to be adjusted. The Revised Standard
     Operating Procedures, Section VIII-I, states that "all unpaid invoices received prior
                                             3

     to the fiscal year end or invoices received subsequent to the fiscal year end until the
     day the accounting records are closed, which relate to services rendered or goods
     received prior to the fiscal year end, are recorded as accounts payable."

     The auditors recommend that the Director of the OFB amend Section VIII-I, C, of
     the Revised Standard Operating Procedures handbook to require that the Chief of
     Finance examine invoices received subsequent to the fiscal year end for the date of
     receipt of goods or services to determine the appropriate fiscal year in which to
     charge the expense.

            RESPONSE: AGREE IN PART/DISAGREE IN PART

     While any inaccuracies in end of fiscal year processing are regrettable and should be
     minimized, especially when repeated, we note that a large volume of invoices are
     typically processed in the end of the fiscal year rush and human error is inevitable.
     In the past, we attempted to eliminate this error by instructing the accounting
     technicians to verify the date of receipt for all invoices received at fiscal year end.
     We believe that verification of the date of receipt is a duty and responsibility of the
     accounting technicians and should not become part of the Finance Division Chief's
     duties and responsibilities.

     Requiring the Finance Division Chief to examine any invoices received after the end
     of the fiscal year but before the accounting records are closed, places en extra
     burden on the Finance Chief during a very busy close-out period. While we
     understand the concern of the auditors' that this kind of human error continues to
     occur, we note that eliminating human error entirely may not be possible. Rather
     than having the Chief of the Finance Division perform additional clerical duties, we
     suggest issuing instructions to the accounting technicians that would require them to
     circle the date of receipt on all invoices processed after the end of the fiscal year. This
     would ensure that they actually viewed the date of receipt and would make them
     accountable for something within their area of responsibility, rather than delegating
     it back up the chain of command. If this fails to minimize errors, then it may be
     appropriate to have the Division Chief recheck all their end-of-year work.

            TARGET COMPLETION DATE: April 15, 1997


C.   UNDOCUMENTED RECEIPT OF GOODS AND SERVICES AND/OR
     PAYMENTS OF INVOICES PRIOR TO RECEIPTS OF GOODS OR SERVICES

            FIND ING/SUGG ESTION

     The auditors selected 78 invoices in their review of Cost Center Manager practices
     regarding receipt of goods and services. The auditors determined that 2 of the
                                           4

     invoices did not have information as to when the goods or services were actually
     received, while 2 others showed dates of receipt that were after the invoices were
     noted as paid. The date of receipt is required of CCMs so that the Finance Division
     can make an accurate determination as to the proper fiscal year to record the
     transactions. Certification by the CCM also provides assurance that the goods or
     services were properly provided to the Commission prior to payment. Section 111-4
     of the Revised Standard Operating Procedures req uires that the Finance Division
     receive either a certification by an authorized Commission representative indicating
     when the goods or services were received or an actual receiving report signed by an
     authorized Commission representative prior to processing an invoice for payment.

     The auditors recommend that the Director of OFB notify all CCMs that the Finance
     Division will pay only those invoices for which they have received an accurate, signed
     receiving report or a certification that the goods or services were received and were
     satisfactory.

            RESPONSE: AGREE

     The Director of OFB will send out the suggested notice.

            TARGET COMPLETION DATE: April 15, 1997



D.   IMPROPER MINIMUM ANNUAL LEAVE CHARGE

            FINDING/SUGGESTION

     The auditor's tests of payroll and person nel benefits disclosed one instance where an
     employee's used year-to-date annual leave hours had an increment of a fraction of
     an hour. The Commission's time and attendance system accepts annual leave usage
     for less than hour increments. However, the Commission's Directive 2201.1,
     Chapter VI, states "Only whole hour increments of annual leave are to be recorded
     on the T&A record." The auditors suggested that timekeepers be reminded of
     Commission policy regarding annual leave in whole hour increments.

            RESPONSE: AGREE

     The Chief of the Finance Division sent an electronic memorandum to all agency
     timekeepers reminding them of the Commission policy.

            TARGET COMPLETION DATE: DONE
